           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

  FOLLOW-UP: THE SOCIAL SECURITY
ADMINISTRATION'S IMPLEMENTATION OF
PROGRAM OPERATIONS MANUAL SYSTEM
     SECURITY REQUIREMENTS FOR
 DISABILITY DETERMINATION SERVICES

      May 2009   A-14-08-18076




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:   May 27, 2009                                                         Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Follow-up: The Social Security Administration’s Implementation of Program Operations
        Manual System Security Requirements for Disability Determination Services
        (A-14-08-18076)


        OBJECTIVE

        Our objective was to determine whether the Social Security Administration (SSA)
        implemented recommendations in the following Office of the Inspector General (OIG)
        reports and PricewaterhouseCoopers (PwC) Management Letters.

             General Controls of the Alabama Disability Determination Services Claims
              Processing System Need Improvement (A-14-02-22089)

             General Controls of the Washington Division of Disability Determination Services
              Claims Processing System Need Improvement (A-14-02-22093)

             PwC Management Letters issued for its Fiscal Years (FY) 2001 through 2007
              financial statement audits

        We limited our review to those recommendations that requested modifying the Program
        Operations Manual System (POMS) privacy and security procedures for disability
        determination services (DDS).

        BACKGROUND

        The Disability Insurance program provides benefits to wage earners and their families in
        the event the wage earner becomes disabled. The Supplemental Security Income
        program was designed to help aged, blind, and/or disabled people who have little or no
        income. SSA implements the policies governing the development of disability claims
        under each program. Disability determinations under both programs are performed by
        DDSs in each State or other responsible jurisdiction according to Federal regulations. 1

        1
            20 C.F.R., part 404, subpart Q, and part 416, subpart J.
Page 2 - The Commissioner


Each DDS determines claimants’ disabilities and ensures there is adequate evidence to
support its determinations. On behalf of SSA, DDS personnel process and store
personally identifiable information (PII), 2 such as names and Social Security numbers.

POMS 3 contains required and recommended privacy and security policies for DDSs.
Those that address maintaining and safeguarding SSA’s systems of records are
mandatory, while those that address DDS facilities and personnel are discretionary
provided they do not conflict with State security directives. To ensure the information
SSA entrusts to the DDSs is protected in accordance with Federal laws and regulations
as well as Agency policies and procedures, it is critical for SSA to keep POMS current
and complete and monitor the DDS' compliance with POMS.

SSA issued new DDS privacy and security policies in August 2001; therefore, we
determined whether SSA incorporated recommended changes to POMS from that date.
The OIG made recommendations in 2002 and 2003, and PwC, under the direction of
the OIG, made recommendations during its 2001 through 2008 annual audits. In these
audits, PwC tested general controls at three DDSs, issuing Management Letters with
recommendations to improve DDS’ general controls.

We determined the status of the recommendations made in these reports. For those
recommendations implemented, we performed limited compliance testing. For those
recommendations not implemented, we reviewed SSA's basis for non-implementation
and re-assessed the need for implementation based on mitigating controls in POMS.
For additional information on our scope and methodology, see Appendix B.

RESULTS OF REVIEW

SSA implemented most of the recommendations 4 in two OIG reports and seven PwC
Management Letters that requested modifying the POMS privacy and security
procedures for DDSs. The following table summarizes the number of recommendations
implemented and unimplemented as well as the total number of recommendations
addressed in this report.




2
  Office of Management and Budget (OMB) Memorandum M-07-16 defines PII as “...information which
can be used to distinguish or trace an individual's identity, such as their name, social security number,
biometric records, etc. alone, or when combined with other personal or identifying information which is
linked or linkable to a specific individual, such as date and place of birth, mother’s maiden name, etc.”
3
  POMS, DI 39567, DDS Privacy and Security. Before October 1, 2005, the DDS privacy and security
policies were contained both in POMS and the DDS Security Document (DSD). On that date, however,
the DSD was incorporated into POMS.

4
 The OIG reports and PwC Management Letters presented 37 recommendations that recommended
44 changes to POMS. We considered each recommended change to POMS to be one recommendation.
Page 3 - The Commissioner


                          Recommended Changes to POMS
                    Implemented  Unimplemented      Total
                          32                  12                   44

Of the 32 implemented recommendations, we performed limited compliance testing on
the 28 implemented before October 2008. 5 Although new POMS requirements were
released in October 2008, we did not test the compliance of the four recommendations
addressed in that release to allow the DDSs time to make any necessary changes.
Most noncompliance found during testing related to DDS security plans or was minor
and related to inadequate documentation of procedures.

For the 12 unimplemented recommendations, we reviewed SSA’s basis for rejection
and mitigating controls in POMS to determine which recommendations we believe the
Agency still needs to implement. We found that SSA had compensating controls in
place for 11 of the unimplemented recommendations, and we consider these
recommendations addressed. However, the Agency should reconsider and implement
the remaining recommendation, which related to parking garage access controls.

Implemented Recommendations

SSA implemented 32 recommendations to revise POMS. These recommendations
addressed the following security topics.

   Physical security requirements at the perimeter and sensitive areas in DDS facilities.
   Separation procedures for terminated personnel and removing sensitive
    equipment/information.
   Criminal background checks for new hires.
   Limited system access and guidance on reviewing security violation reports.
   The sufficiency, format and management review of the DDS security plan, including
    expanding contingency plan procedures to ensure continuity of operations at DDS
    facilities.

In response to the recommendations to improve DDS security policy, SSA updated the
DSD and relevant POMS chapters numerous times between December 2001 and
October 2008. While establishing policy is important, compliance with policy is equally
important. As a result, we performed limited compliance testing on the
28 recommendations implemented before October 2008. Most noncompliance issues
were related to DDS security plans or inadequate documentation of procedures.



5
  The remaining four recommendations were implemented in October 2008. Since these
recommendations were recently added to POMS, we have not tested them in the DDSs. See Appendix C
for details on the recommendations.
Page 4 - The Commissioner


Among the implemented recommendations tested were specific requirements for
security plan content and the plans’ annual review by DDS management. Despite these
requirements, two of three DDS security plans reviewed in 2008 did not comply with
POMS. Furthermore, in 2006 and 2007, two of three plans reviewed were missing at
least half the prescribed sections. We, therefore, recommend POMS require that
Regional Office staff annually review the security plans and submit approvals or
modification requests to the DDSs.

SSA implemented four recommendations in the October 2008 release of POMS, two of
which were added after we brought the issues to the Agency’s attention. Although the
new POMS requirements were effective in October 2008, we did not test the
compliance of the four recommendations implemented in that release because the
DDSs did not have adequate time to make any necessary changes.

Unimplemented Recommendations

SSA considered, but did not implement, 12 of 44 recommendations. 6 Eleven of these
recommendations have been mitigated through compensating controls; 7 however, the
following recommendation has not been mitigated and needs to be incorporated into
POMS.

     SSA should issue guidance for DDS security management to document and follow
      formal procedures for checking vehicles prior to allowing them entrance into the
      DDS parking garage. The door to the parking garage should remain closed until the
      person or vehicle attempting to enter the garage is verified by the guards.

We recognize current arrangements may not permit DDSs to control parking garage
access; however, POMS must address this issue to ensure DDSs consider this action in
the future.

CONCLUSION AND RECOMMENDATIONS

We found SSA implemented the majority of the recommendations made in two OIG
reports and seven PwC Management Letters that requested modifying POMS privacy
and security procedures for DDSs. However, to further improve the security program
administered by all DDSs, we recommend that SSA modify POMS to:

1. Require that Regional Office staff annually review DDS security plans and submit
   approvals or modification requests to the DDSs.




6
    See Appendix C for a full list of recommendations.
7
    See Appendix D for a list of the 11 recommendations and mitigating controls.
Page 5 - The Commissioner


2. Implement the prior recommendation to provide guidance for DDS security
   management to document and follow formal procedures for checking vehicles prior
   to allowing them entrance into the DDS parking garage. The door to the parking
   garage should remain closed until the person or vehicle attempting to enter the
   garage is verified by the guards.

AGENCY COMMENTS

SSA agreed with our recommendations. The Agency’s comments are included in
Appendix E.



                                             S
                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Status of Reviewed Recommendations

APPENDIX D – Mitigating Controls for Unimplemented Recommendations

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
CDP     Center for Disability Programs
C.F.R   Code of Federal Regulations
CSI     Center for Security and Integrity Programs
DDS     Disability Determination Services
DSD     Disability Determination Services Security Document
FY      Fiscal Year
IDS     Intrusion Detection System
OIG     Office of the Inspector General
OMB     Office of Management and Budget
PII     Personally Identifiable Information
PIN     Personal Identification Number
POMS    Program Operations Manual System
PwC     PricewaterhouseCoopers
SSA     Social Security Administration
                                                                      Appendix B

Scope and Methodology
The objective of this follow-up review was to determine whether the Social Security
Administration (SSA) implemented recommendations in two Office of the Inspector
General (OIG) reports and seven PricewaterhouseCoopers (PwC) Management Letters
issued for its Fiscal Years 2001 through 2007 financial statement audits.

Our scope was limited to those recommendations that requested changes to the
Program Operations Manual System (POMS) privacy and security procedures for the
disability determination services (DDS). Thirty-seven recommendations fell within this
scope, recommending 44 changes to POMS.

To accomplish our objective, we:

   Extracted all recommended changes to the POMS privacy and security procedures
    the DDSs should follow. Each recommended change was treated as a single
    recommendation.
   Traced each implemented recommendation to the language that was used to
    implement it in POMS.
   Reviewed those recommendations unimplemented by the Agency to determine
    which should be reconsidered for incorporation into POMS.

To assess the implementation of recommendations at the DDSs, we also performed a
limited compliance review on the 28 recommendations that were incorporated into
POMS before October 2008. Although new POMS requirements were released in
October 2008, we did not test the compliance of the four recommendations
implemented in that release since the DDSs had not had adequate time to make the
necessary changes.

To perform our testing, we partially relied on the work done by PwC during its financial
statement review. During its FY 2008 audit, PwC tested 16 recommendations at
3 DDSs. An additional two recommendations concerned triennial reviews, which were
last tested during PwC’s FY 2006 audit. Most noncompliance found during testing
related to DDS security plans or was minor and related to inadequate documentation of
procedures.




                                          B-1
To provide a sufficient basis to rely on the work done by PwC staff, we:

   Obtained and reviewed evidence concerning the staff’s qualifications and
    independence.
   Obtained and reviewed the latest peer review report on PwC to determine whether
    the firm had an adequate quality control process in place as of June 2006.
   Reviewed the scope and quality of the work performed at the DDSs and the
    supporting documentation for its Management Letter findings.
   Reviewed the audit program steps followed for the DDS security tests.

For the remaining 10 recommendations, we conducted limited compliance tests in 5 of
the 10 SSA regions. In each of those five regions, we had SSA determine which DDSs
had excessed computers. We chose five DDS sites (Maryland, Kansas, New York,
Massachusetts and Louisiana) for review. We used computer forensics software to
determine whether excessed computer hard drives at these sites had been properly
erased per POMS. We also determined whether these five DDSs were complying with
the other nine recommended changes to POMS implemented before October 2008 not
tested by PwC. We noted one instance of noncompliance; however, because of
compensating controls, it did not rise to the level of an exception.

We performed our field work at SSA Headquarters between November 2007 and
December 2008. The entity audited was the Office of Operations. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.




                                           B-2
                                                                          Appendix C

Status of Reviewed Recommendations
The table below identifies whether the Social Security Administration (SSA)
implemented recommended changes to the Program Operations Manual System made
in two Office of the Inspector General (OIG) reports and seven
PricewaterhouseCoopers (PwC) Management Letters issued for its Fiscal Years 2001
through 2007 financial statement audits. These reports recommended 44 changes to
POMS. Of these recommended changes, 32 were implemented and 12 were not
implemented.

Recommendation    Source      Category                    Part                      Implemented

                                         Include requirements in the DDS
                                         Security Document to use access
                              Physical
      1a         PwC 2003                mechanisms that are not based on               No
                              Security
                                         cipher locks, the code for which is
                                         easily disclosed.
                                         Use access mechanisms that can log
                              Physical
      1b         PwC 2003                entrances and exits to provide proper
                              Security
                                         audit trails.
                                         Clarify that perimeter security
                              Physical   guidelines extend to elevators
      2a         Washington                                                             No
                              Security   accessing DDS operations when the
                                         DDS is in a multi-tenant building.
                                         Add requirements on the control and
                              Physical
      2b         Washington              security of elevators used to access
                              Security
                                         secure DDS operations.
                                         Install locking doors with card readers
                              Physical
      2c         PwC 2003                outside the elevators on each of the
                              Security
                                         DDS floors.
                                         Expand the building perimeter security
                              Physical   guidance to include the security of
      3a          Alabama                                                              Yes
                              Security   lobby entrances into DDS operational
                                         areas.
                                         Clarify that perimeter security
                              Physical   guidelines extend to DDS entrances in
      3b         Washington
                              Security   addition to building entrances when the
                                         DDS is in a multi-tenant building.
                                         Update the DDS annual self review
                                         checklist to require DDS management
                              Physical   to perform an annual recertification of
       4         PwC 2006                                                           Yes (10/08)
                              Security   personnel with physical access to the
                                         DDS, including sensitive areas of the
                                         DDS, such as the computer room.
                                         Require the installation of burglar
                              Physical   alarm system devices in computer and           No
      5a          Alabama
                              Security   telephone rooms if a perimeter burglar
                                         alarm system has not been installed .
                                                                            G.1.1




                                          C-1
Recommendation    Source    Category                     Part                      Implemented

                                       The DDS computer room should be
                                       secured with alarms, motion sensors
                                       or other detection devices to identify
                            Physical   unauthorized access during times
      5b         PwC 2003
                            Security   when the computer room staff is not
                                       present. Such devices should
                                       automatically notify a monitoring
                                       center.
                                       Guidance and instruction to provide a
                                       consistent framework (types, use and
                            Physical
      6          Alabama               placement) for burglar alarm system             No
                            Security
                                       devices and smoke detectors in a
                                       DDS.
                            Physical   Install automatically closing computer
      7          PwC 2003                                                          Yes (10/08)
                            Security   room doors.
                                       Clearly state that computer room locks
                            Physical
      8          Alabama               should be keyed separately from the            Yes
                            Security
                                       building master keys.
                                       Guidance on the control and security
                                       of a telephone room when the
                            Physical
      9          Alabama               telephone system is located in a               Yes
                            Security
                                       separate room from the computer
                                       room.
                                       Update the DDS Security Document to
                                       include specific guidance related to the
                                       protection of the computer rooms that
                                       do not have true walls that extend from
                                       floor to ceiling. This guidance should
                                       include alternate methods to secure
                            Physical
      10         PwC 2002              the computer rooms other than                  Yes
                            Security
                                       extending the walls. A common
                                       practice is to install chain link fences,
                                       heavy wire mesh, or motion sensor
                                       alarms in the space between the false
                                       ceiling and the true ceiling of the
                                       facility.
                                       Guidance and security procedures for
                            Physical
      11         Alabama               computer rooms located on a                    Yes
                            Security
                                       perimeter wall with windows.
                            Physical
      12         PwC 2003              Completely enclose the wiring closets.         Yes
                            Security
                                       The door to the parking garage should
                            Physical   remain closed until the person or               No
     13a         PwC 2003
                            Security   vehicle attempting to enter the garage
                                       is verified by the guards.
                                       DDS security management should
                                       formally document (and ensure the
                            Physical   guards are consistently following)
     13b         PwC 2003
                            Security   formal procedures for checking
                                       vehicles prior to allowing them
                                       entrance into the DDS parking garage.




                                        C-2
Recommendation    Source      Category                       Part                      Implemented

                                            Update the POMS guidelines to
                                            specifically include the authentication
                              Physical      of visitors to a government issued
      14         PwC 2007                                                                 Yes
                              Security      photo ID (driver's license, passport,
                                            state-issued ID badge) prior to entering
                                            the DDS facility.
                                            Complete a risk assessment to
                              Physical      determine if metal detectors or X-ray
      15         PwC 2004                                                                  No
                              Security      machines would be an appropriate
                                            solution for this weakness.
                                            Address the physical security concerns
                                            by screening personnel and packages
                              Physical      at the entrances to the DDS facility.
     16a         PwC 2003                                                              Yes (10/08)
                              Security      The requirement to perform this
                                            procedure should be added to the DDS
                                            Security Document.
                                            Develop procedures to inspect the
                              Physical
     16b         PwC 2004                   belongings of personnel and visitors
                              Security
                                            entering the facility.
                                            Guidance on conducting a risk-based,
                                            cost-benefit analysis to determine
                              Physical
      17          Alabama                   whether existing and future DDS                No
                              Security
                                            buildings without a sprinkler system
                                            should have one installed.
                                            Provide DDS management with
                                            detailed guidance and procedures that
                               Access       should be completed when the DDS is
      18         PwC 2002                                                                 Yes
                               Control      disposing of or removing sensitive
                                            information or equipment from the
                                            DDS.
                                            Update the DDS Security Document to
                                            ensure that specific guidance is given
                                            with relation to the separation
                                            procedures for terminated (or extended
                                            leave) or separated employees. This
                               Access
      19         PwC 2002                   guidance should include all activities        Yes
                               Control
                                            that are required to take place during
                                            employee exit procedures, including
                                            the return of property and the removal
                                            of access amounts from system and
                                            application environments.
                                            Add requirements to change shared
                               Access
      20         Washington                 entrance combinations whenever DDS            Yes
                               Control
                                            personnel cease employment.
                                            Require all DDS employees to
                                            complete an employee suitability
                                            review process. These reviews should
                                                                                       Yes (10/08)
     21a         PwC 2002     Suitability   be conducted in a manner that is
                                            consistent with the overall SSA policies
                                            related to employee background
                                            checks.




                                             C-3
Recommendation    Source      Category                      Part                     Implemented

                                            Basic background checks performed
                                            for all employees of the DDS to ensure
                                            a reduction in the risk of hiring
                                            personnel that have past criminal
     21b         PwC 2002     Suitability
                                            records. The background checks
                                            should be performed in a consistent
                                            manner with overall SSA background
                                            investigation procedures.
                                            Guidance that requires conformity with
      22          Alabama     Suitability                                                No
                                            SSA’s suitability program.
                                            Guidance to specify security training
                                            requirements for DDS security officers
                              Technical
     23a          Alabama                   to obtain and maintain their skills in       No
                               Security
                                            administering security on an AS/400 or
                                            other DDS system.
                                            Establish security officer training
                              Technical
     23b         Washington                 requirements that comply with Federal
                               Security
                                            standards.
                              Technical     Guidance to specify the duties DDS
      24          Alabama                                                                No
                               Security     security officers should not perform.
                                            Guidance on access control
                                            procedures relating to approving and
                              Technical
      25          Alabama                   documenting DDS system initial              Yes
                               Security
                                            requests, access changes and
                                            terminations.
                                            Guidance to restrict access and limit
                              Technical
      26          Alabama                   the use of communication ports in DDS       Yes
                               Security
                                            systems.
                                            Guidance on access control
                              Technical     procedures relating to using naming
      27          Alabama                                                                No
                               Security     standards for profiles and group and
                                            temporary profiles.
                                            Guidance to restrict access and limit
                              Technical
      28          Alabama                   the use of generic profiles including       Yes
                               Security
                                            vendor supplied profiles.
                                            Guidance to restrict access and limit
                              Technical
      29          Alabama                   the use of security-related operating       Yes
                               Security
                                            system commands.
                                            Update POMS to specify the timeframe
                              Technical     in which security violation reports
      30         PwC 2006                                                               Yes
                               Security     should be reviewed by DDS
                                            management.
                                            Guidance on access control
                              Technical     procedures relating to monitoring,
      31          Alabama                                                               Yes
                               Security     reviewing, and reporting DDS system
                                            security violations.
                                            Update the DDS Security Document to
                                            ensure that specific guidance is given
                              Security                                                  Yes
     32a         PwC 2002                   related to the completion of annual
                               Plan
                                            security and sanction awareness
                                            activities for all DDS employees.




                                             C-4
Recommendation    Source      Category                    Part                      Implemented

                                         Provide guidance to ensure the
                              Security   employees are reviewing and signing
     32b         PwC 2002
                               Plan      the awareness documentation on an
                                         annual basis.
                                         Identify a specific list of possible DDS
                              Security   or field office sites for each DDS and
      33         PwC 2002                                                              Yes
                               Plan      coordinate agreements related to the
                                         accommodation of additional workload.
                              Security   Identify needs in a worst-case
      34         PwC 2002                                                              Yes
                               Plan      scenario.
                                         Document policies and procedures
                              Security   regarding actions to be taken for each
      35         PwC 2003                                                               No
                               Plan      of the Department of Homeland
                                         Security threat levels.
                                         Establish and document a clear
                              Security
      36         PwC 2002                definition of what work will be               Yes
                               Plan
                                         performed at the alternate sites.
                              Security   Detailed back-up procedures for
      37          Alabama                                                              Yes
                               Plan      copies of the contingency plan.
                                         Create a formal risk-based security
                              Security   control review that is used at least
      38         Washington                                                            Yes
                               Plan      every 3 years or whenever a major
                                         system modification occurs.
                              Security   Detailed back-up procedures for the
     39a          Alabama                                                              Yes
                               Plan      storage of back-up files.
                                         Update the DDS Security Document to
                                         define a standard rotation schedule to
                              Security
     39b         PwC 2004                maintain back-up tapes at an off-site
                               Plan
                                         storage facility for specified amount of
                                         time.
                                         Ensure that the DDS security guidance
                                         is updated to require management
                              Security   reviews of DDS security plans. This
     40a         PwC 2002                                                              Yes
                               Plan      guidance should be in line with the
                                         overall SSA policies for security plan
                                         currency.
                                         Ensure that evidence be maintained of
                              Security   these reviews. This guidance should
     40b         PwC 2002
                               Plan      be in line with the overall SSA policies
                                         for security plan currency.
                                         DDS continuity of operations plan
                              Security
     41a          Alabama                requirements recommended by PwC in            Yes
                               Plan
                                         its FY 2001 Management Letter.
                                         DDS security plan contents that
                                         comply with OMB Circular A-130,
                              Security
     41b          Alabama                Appendix III requirements, as
                               Plan
                                         recommended by PwC in its FY 2001
                                         Management Letter.




                                          C-5
Recommendation    Source      Category                     Part                       Implemented

                                         Ensure that POMS 39566.120 is
                                         updated to include all requirements of
                              Security   OMB A-130 Appendix Ill with regard to
     41c         PwC 2002
                               Plan      security requirements. This will ensure
                                         that the DDS plans are updated in a
                                         correct format.
                                         Require the management of each DDS
                                         to certify at least every 3 years that the
                              Security   security controls are sufficient to
      42         Washington                                                              Yes
                               Plan      warrant the continued use of each
                                         DDS general support system and
                                         major application.
                                         Guidance on access control
                              Security   procedures relating to conducting
     43a          Alabama                                                                Yes
                               Plan      annual reviews of all access privileges
                                         on DDS and SSA systems.
                                         A periodic review should be performed
                                         for the mainframe, NT, WANG, and
                              Security   AS400 (when fully implemented) to
     43b         PwC 2002
                               Plan      ensure that users have only been
                                         granted access necessary to fulfill job
                                         responsibilities.
                                         Annual reviews of NT, AS 400, and
                              Security
     43c         PwC 2002                mainframe access required by the
                               Plan
                                         DDS Security Document.
                                         Access to the mainframe compared by
                              Security   using the actual access listings from
     43d         PwC 2002
                               Plan      Top Secret to compare to job
                                         requirements.
                                         Ensure that the DDS Security
                                         Document is updated to include
                                         specific guidance related to the
                              Security
     44a         PwC 2002                policies for completing annual                  Yes
                               Plan
                                         recertification of personnel with access
                                         to the WANG, NT, and AS400
                                         environments.
                                         SSA policy modified to require
                              Security   documentation of access reviews
     44b         PwC 2002
                               Plan      performed to match access to that
                                         granted by the Top Secret software.




                                          C-6
                                                                                       Appendix D

Mitigating Controls for Unimplemented
Recommendations
The table below identifies 11 recommendations to modify the Program Operations
Manual System (POMS) privacy and security procedures for disability determination
services (DDS) that were not implemented by the Social Security Administration (SSA). 1
Although not implemented, we believe POMS contains mitigating controls that address
the concerns of these recommendations.

Recommendation                         Part                     Mitigating POMS Control and Reference
                                                             Change access codes, such as the intrusion
                                                             detection system (IDS) code,
                         Include requirements in the DDS
                                                             combination/cipher lock codes, card access
                         Security Document to use
                                                             codes, and safe combinations when staff with
           1a            access mechanisms that are not
                                                             knowledge of them leave or no longer have a
                         based on cipher locks, the code
                                                             need to know them, or whenever compromise
                         for which is easily disclosed.
                                                             of the codes occurs or is suspected.
                                                             (DI 39567.040)

                                                             Screen personnel, visitors, and packages at
                                                             the entrance to the DDS facility.
                         Use access mechanisms that
                                                             (DI 39567.025)
           1b            can log entrances and exits to
                         provide proper audit trails.
                                                             If used by personnel, perimeter doors should
                                                             have a combination/cipher lock or a card
                                                             access system. (DI 39567.015)
                         Clarify that perimeter security
                         guidelines extend to elevators
           2a            accessing DDS operations when
                         the DDS is in a multi-tenant
                         building.                           If a DDS is located in a multi-tenant building, it
                         Add requirements on the control     should be self-contained to the extent possible.
           2b            and security of elevators used to   (DI 39567.015)
                         access secure DDS operations.
                         Install locking doors with card
           2c            readers outside the elevators on
                         each of the DDS floors.




1
    See Appendix C for a full list of recommendations.


                                                     D-1
Recommendation                  Part                     Mitigating POMS Control and Reference
                 Require the installation of burglar
                 alarm system devices in
      5a         computer and telephone rooms if
                 a perimeter burglar alarm system
                                                       Install an intrusion detection system (IDS) in all
                 has not been installed.
                                                       facilities unless determined unnecessary.
                 The DDS computer room should
                                                       (DI 39567.020)
                 be secured with alarms, motion
                 sensors or other detection
                                                       Restrict computer room access to
                 devices to identify unauthorized
                                                       management or authorized personnel.
      5b         access during times when the
                                                       (DI 39567.020)
                 computer room staff is not
                 present. Such devices should
                 automatically notify a monitoring
                 center.
                 Guidance and instruction to
                                                       Install an IDS in all facilities unless determined
                 provide a consistent framework
                                                       unnecessary. (DI 39567.020)
      6          (types, use and placement) for
                 burglar alarm system devices
                                                       Abide by local fire codes. (DI 39567.030)
                 and smoke detectors in a DDS.
                 Management should also
                 complete a risk assessment to
                                                       Screen personnel, visitors, and packages at
                 determine if metal detectors or
      15                                               the entrance to the DDS facility.
                 X-ray machines would be an
                                                       (DI 39567.025)
                 appropriate solution for this
                 weakness.
                 Guidance on conducting a risk-
                 based, cost-benefit analysis to       Abide by local fire codes (DI 39567.030)
                 determine whether existing and
      17
                 future DDS buildings without a        Install an IDS in all facilities unless determined
                 sprinkler system should have          unnecessary (DI 39567.020)
                 one installed.
                                                       Although Federal regulations reserve
                                                       governance of personnel matters to the States,
                                                       we expect that each DDS will maintain and
                                                       administer an effective suitability program.
                                                       DI 39567.260 C in this section establishes the
                 Guidance that requires
                                                       minimum requirement that DDS suitability
      22         conformity with SSA’s suitability
                                                       programs include a statewide criminal
                 program.
                                                       background check. Beyond that minimum
                                                       requirement, States are given broad discretion
                                                       on the composition, implementation, and
                                                       administration of their DDS suitability
                                                       programs. (DI 39567.260)
                 Guidance to specify security          The DDS Security Officer is responsible for
                 training requirements for DDS         implementing SSA security policies and
                 security officers to obtain and       procedures so access to SSA data is properly
                 maintain their skills in              controlled. In carrying out this responsibility,
      23         administering security on an          the DDS Security Officer must have the ability
                 AS/400 or other DDS system.           and maintain the systems skills to effectively
                 Establish security officer training   monitor current systems in areas of
                 requirements that comply with         certification and violation procedures.
                 Federal standards.                    (DI 39567.320)




                                               D-2
Recommendation                 Part                   Mitigating POMS Control and Reference
                                                    All users requiring access to SSA/DDS
                                                    systems must submit Form SSA-120 to their
                                                    DDS Security Officer to obtain a 6-digit
                                                    personal identification number (PIN).
                                                    (DI 39567.060)

                                                    The DDS Security Officer reviews the form for
                                                    accuracy and to ensure the user is assigned
                                                    proper systems access to perform his or her
                                                    work assignments. Part of the DDS Security
                                                    Officer's review is to determine whether the
                                                    user has already been assigned a PIN. If so,
                                                    then the Security Officer provides the
                 Guidance to specify the duties     previously assigned PIN to the user after
      24         DDS security officers should not   contacting the Center for Security and Integrity
                 perform.                           (CSI)/Center for Disability Programs (CDP) to
                                                    reactivate it.

                                                    If a new PIN is required, then the Security
                                                    Officer signs the form as the requesting official,
                                                    and forwards the form to the CSI/CDP.

                                                    CSI reviews the form. If the employee requires
                                                    access, then CSI approves the form and
                                                    issues a PIN, or returns copies of the form to
                                                    the DDS Security Officer with a previously
                                                    assigned PIN. CSI or CDP retains the original
                                                    and informs the DDS Security Officer of the
                                                    new PIN. (DI 39567.060)
                                                    All user profiles, including any generic profiles
                                                    and profiles for non-DDS employees, should
                                                    be supported by a DDS access procedure.
                                                    This procedure should support the access
                                                    privileges on the iSeries or other case
                 Guidance on access control
                                                    processing system as well as what menu is
                 procedures relating to using
                                                    provided for all DDS users in the State claims
      27         naming standards for profiles
                                                    processing system. (DI 39567.080)
                 and group and temporary
                 profiles.
                                                    Users who do not require a high level of
                                                    access should have their status updated and
                                                    special access removed. This review should
                                                    be conducted on a periodic basis and must be
                                                    performed at least annually. (DI 39567.105)
                                                    Each DDS must create and maintain a
                                                    Continuity of Operations Plan as part of its
                 Document policies and
                                                    DDS Security Plan. The local DDS information
                 procedures regarding actions to
                                                    provided in the plan is supplementary to the
      35         be taken for each of the
                                                    Regional Office plan and is used to assist the
                 Department of Homeland
                                                    Regional Office if continuity of operations
                 Security threat levels.
                                                    efforts for the DDS should become necessary.
                                                    (DI 39567.190)




                                             D-3
                  Appendix E

Agency Comments
                                          SOCIAL SECURITY
MEMORANDUM


Date:      May 08, 2009                                                            Refer To: S1J-3

To:         Patrick P. O'Carroll, Jr.
            Inspector General

From:       James A. Winn        /s/
            Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report, “Follow-up: The Social Security
            Administration’s Implementation of Program Operations Manual System Requirements for
            Disability Determination Services” (A-14-08-18076)—INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate the
           comprehensive work that the OIG auditing team did on this report. Our response to the report
           findings and recommendations is attached.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                          E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“FOLLOW-UP: THE SOCIAL SECURITY ADMINISTRATION’S IMPLEMENTATION
OF PROGRAM OPERATIONS MANUAL SYSTEM SECURITY REQUIREMENTS FOR
DISABILITY DETERMINATIONS SERVICES” (A-14-08-18076)

Recommendation 1

Require that regional office staff annually review disability determination services (DDS)
security plans and submit approvals or modification requests to the DDSs.

Comment

We agree. We will consider updating Program Operations Manual System (POMS)
DI 39567.160 to include a requirement that regional office staff review DDS security plans
annually and provide approval or recommended modifications to each DDS.

Recommendation 2

Implement the prior recommendation to provide guidance for DDS security management to
document and follow formal procedures for checking vehicles prior to allowing them entrance
into the DDS parking garage. The door to the parking garage should remain closed until the
guards have verified vehicle and/or person attempting to enter the garage.

Comment

We agree. We will update POMS DI 39567.015 with language recommending that DDSs with
garage parking establish and follow formal procedures for checking vehicles prior to garage
entry.




                                              E-2
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Phil Rogofsky, Acting Director, Information Technology Audit Division

   Mary Ellen Moyer, Acting Audit Manager

Acknowledgments

In addition to those named above:

   Alan Lang, Senior Auditor

   Michael Zimmerman, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-14-08-18076.
                                 DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
